i

No. 20-1773

In the

Supreme Court of the United States
PASADENA REPUBLICAN CLUB,
Petitioner,
v.
WESTERN JUSTICE CENTER, JUDITH CHIRLIN, AND CITY
OF PASADENA,
Respondents.
On Petition for a Writ of Certiorari
to the United States Court of Appeals for the
Ninth Circuit

REPLY BRIEF

ANTHONY T. CASO
Counsel of Record
CONSTITUTIONAL COUNSEL GROUP
174 W. Lincoln Ave., #620
Anaheim, CA 92805
(916) 601-1916
atcaso@ccg1776.com

Counsel for Petitioner

i

TABLE OF CONTENTS
TABLE OF AUTHORITIES....................................... ii
ARGUMENT ............................................................... 1
I.

The Record Establishes that the City
Conferred on Western Justice Center
Exclusive Use and Management of City
Property Which Allowed the Center to
Engage in the Religious and Political
Viewpoint Discrimination at Issue in this
Case............................................................... 2

II.

The Court Should Grant Review to Rule
that Local Governments Cannot Avoid their
Constitutional Obligations by Offloading
Management of City Property to Putatively
Private Entities ............................................ 4

III. The Court Should Grant Review to Resolve
the Conflicts Created by the Ninth Circuit
with Decisions of this Court and other
Circuit Courts of Appeals on an Important
Question of Federal Law .............................. 6
CONCLUSION ............................................................ 8

ii
TABLE OF AUTHORITIES
Cases
Alameda Cty. v. Janssen,
16 Cal. 2d 276; 106 P.2d 11 (1940) ..........................4
City of St. Louis v. Paprotnik,
485 U.S. 112 (1988)..................................................5
Frazier v. Bd. of Trustees of Nw. Mississippi Reg’l
Med. Ctr.,
765 F.2d 1278 (5th Cir. 1985), amended, 777 F.2d
329 (5th Cir. 1985) ...................................................4
Gerena v. Puerto Rico Legal Servs., Inc.,
697 F.2d 447 (1st Cir. 1983) ....................................4
Gilmore v. City of Montgomery, Ala.,
417 U.S. 556 (1974)..................................................7
Monell v. Department of Social Services,
463 U.S. 658 (1978)..................................................5
Statutes
40 U.S.C. §484(e)(3)(H) ...............................................1

1
ARGUMENT
Contrary to respondents’ attempt to make this a
case about disputed facts, there is no such dispute.
This case is before the Court after judgment on Western Justice Center and Judith Chirlin’s motion to dismiss and the City of Pasadena’s motion for summary
judgment. The record is set and neither the City nor
the Western Justice Center can dispute the facts. All
of the facts are in the appendix and each fact in the
petition is supported by a citation to the appendix.
There is no dispute as to the fact that Western
Justice Center was not legally qualified to purchase
the Maxwell House Property. App at 96. That property could only be purchased by a government entity
for public purposes. 40 U.S.C. §484(e)(3)(H); App. at
178.
There is no dispute as to the fact that the City of
Pasadena purchased the property for the public purposes of the City (App. at 96, 160) nor is there a dispute as to the fact that the City committed to those
public purposes in submissions to the United States
General Services Administration (App. at 169, 174).
There is no dispute that the General Services Administration reported the City’s commitment to use the
property for public purposes to Congress. App. at 174.
There is no dispute as to the fact that the Maxwell House property remains under the ownership of
the City of Pasadena and that the Western Justice
Center manages that property for the City according
to the City’s Plan of Public Use. App. at 96, 160, 173.

2
The Pasadena Republican Club has consistently
argued – from the original complaint, through the District Court, the Ninth Circuit, and in the petition to
this Court – that this case is about the exclusive use
and management of the public property of the City of
Pasadena. Similarly, the Club has consistently argued that the City can be liable for the viewpoint and
religious belief discrimination committed by the Center either through the theory of joint action outlined
in Burton v. Wilmington Parking Authority, 365 U.S.
715, 725 (1961), or because the City delegated authority to Western Justice Center to make policy for how
this City-owned property would be used after normal
business hours. The arguments that these are new
claims are simply without merit.
I.

The Record Establishes that the City Conferred on Western Justice Center Exclusive
Use and Management of City Property
Which Allowed the Center to Engage in the
Religious and Political Viewpoint Discrimination at Issue in this Case

The City would like to pretend that the lease to
the Western Justice Center of the Maxwell House
property only surrendered a property interest, and
nothing more. City of Pasadena’s Brief in Response to
Petition for Certiorari (City) at 26, Western Justice
Center’s Brief in Opposition (WJC) at 5.
Respondents do not dispute (nor could they) that
the City represented to the General Services Administration that the property was being purchased for
the public purposes of the City. App. 96, 168. The
Western Justice Center did not qualify as an entity

3
that could legally purchase the property from the federal government. App. at 96. Not even its status as
an organization initiated by judges of the Ninth Circuit Court of Appeals qualified it as an entity that
could lawfully purchase the property. See App. at 161.
When it proposed to purchase the property, the
City included the proposed lease with the Western
Justice Center in the proposal submitted to the General Services Administration. App. at 168. The GSA,
in turn, provided the documents to Congress. App. at
174.
That lease recounted that it was not a commercial
transaction. App. at 96. Instead, the City was seeking
to accomplish the public purposes of the City in the
purchase and lease arrangement. App. at 96, 160.
This was not a generic statement of public purpose as
Western Justice Center now claims. WJC at 5. Instead, the lease included specific limitations on the
use of the property. App. at 96, 101-02, 160. Subleasing portions of the property was only permitted if the
sublease fulfilled the plan of public purpose attached
to the lease. Id. To enforce this provision, the Western Justice Center was required to give notice to the
City of all of the subleases. App. at 134.
This detailed plan of public use showed that the
City continued to exercise control over the property to
ensure that its public purposes where fulfilled. Western Justice Center may have had exclusive use of the
property, but it was managing the property for the
public purposes of the City.

4
Further, the City used taxpayer funds to purchase the property and finance its repair and refurbishment. App. at 217-18. Yes, the Western Justice
Center was contractually obligated to repay the City
– but that does not change the fact that the City considered this entire project as one that advanced the
public purposes of the City.1
II.

The Court Should Grant Review to Rule
that Local Governments Cannot Avoid
their Constitutional Obligations by Offloading Management of City Property to Putatively Private Entities

The City insists that it can only be held liable under Section 1983 and then only if the Western Justice
Center was acting in accord with City policy. City at
11. The City’s arguments in this regard raise important questions for this Court’s review. In Burton,
this Court held that the state was jointly liable for the
discrimination in that case both by its inaction and
because it placed its “power, property, and prestige”
behind that discrimination. Burton, 365 U.S. at 725.
Other Circuit Courts of Appeals have acknowledged
this rule. Frazier v. Bd. of Trustees of Nw. Mississippi
Reg’l Med. Ctr., 765 F.2d 1278, 1288 n.22 (5th Cir.
1985), amended, 777 F.2d 329 (5th Cir. 1985). Gerena
v. Puerto Rico Legal Servs., Inc., 697 F.2d 447, 451 (1st
Cir. 1983).

Under the California Constitution, the City can only lend its
credit to a private entity for a public purpose. Alameda Cty. v.
Janssen, 16 Cal. 2d 276, 281; 106 P.2d 11, 14 (1940).
1

5
The City argues that the Club misrepresented
the Ninth Circuit’s ruling – but the Club quoted directly from the Ninth Circuit ruling on the requirement of City knowledge. The lower court concluded
that there was no liability for the City because “[t]he
City did not participate in, or know in advance about,
the initiation or the cancellation of the Club’s speaking event.” App. 20. The City provides no contrary
citation.
For its part, the Western Justice Center simply
invents a finding of state knowledge of the discrimination at issue in Burton. WJC at 19. But there is no
such finding in this Court’s Burton decision and the
invention of such a requirement by the Ninth Circuit
conflicts with both Burton and the Fifth and First Circuit opinions cited above. This Court should grant review to determine whether Monell v. Department of
Social Services, 463 U.S. 658 (1978), overruled the decision in Burton on this point.
Further, the lease gives the Western Justice Center unbridled discretion to set the policy for the afterhours rental of this City-owned property. App. at 102.
The City dictated the policy for subletting the property to other organizations (App. at 96, 101-02, 160),
demonstrating the City’s intent to maintain ownership and control, with Western Justice Center in the
position of manager to accomplish the City’s public
purposes. When it came to after-hours rentals, however, the City delegated policy-making authority to
the Western Justice Center. App. at 102. This is sufficient under Monell for city liability. City of St. Louis
v. Paprotnik, 485 U.S. 112, 126 (plurality) and 137
(Brennan, J., concurring) (1988).

6
III.

The Court Should Grant Review to Resolve
the Conflicts Created by the Ninth Circuit
with Decisions of this Court and other Circuit Courts of Appeals on an Important
Question of Federal Law

As noted in the Petition, the court below altered
the requirements of Burton by ruling that there can
be no state action unless the private actor is financially indepensable to the entire municipal government of the City of Pasadena. App. 19. The Western
Justice Center and the City attempt to dispute this
plain ruling of the court below, but it is clearly laid out
in the ruling below. Indeed, the Ninth Circuit noted
this “financial indispensability” requirement no less
than six times. App. 13, 14, and 19.
Contrary to the argument of the Western Justice
Center, and the ruling of the Ninth Circuit, the Burton case centered on a single parking garage. Burton,
365 U.S. at 719. The Eagle Coffee Shoppe, the diner
that engaged in the discrimination, was only one of
the tenants to which the Parking Authority leased
space in order to raise funds for the garage. The rent
paid by the coffee shop defrayed only “a portion of the
operating expense of an otherwise unprofitable enterprise.” Id. at 723.
The court below, however, added an additional financial indispensability to the entire government
unit. App. at 14, 19. Contrary to Western Justice
Center’s assertion, this was not an ordinary application of Burton. Instead, it is a new requirement that
effectively overrules Burton.

7
Respondents’ claim surprise at the Petition’s citation to Gilmore v. City of Montgomery, Ala., 417 U.S.
556 (1974). Yet Gilmore is a straightforward application of Burton, relying on the facts of public ownership
of property leased to a private entity that have been
at the core of this case from the beginning. In Gilmore, this Court noted that when a city makes cityowned property “available for use by private entities,”
courts should look to the analysis in Burton to determine whether the city is liable for the discrimination
of the private entity. 417 U.S. at 573. The likelihood
of finding a “symbiotic relationship” greatly increases
when the city grants exclusive use of city-owned property to the private entity. Id. at 574.
The Western Justice Center complains that this
is a new argument. WJC at 13. Yet public ownership
of the property (as opposed to mere regulation) has always been the core of the Pasadena Republican Club’s
argument. It is because the property is owned by the
City of Pasadena that the activity of the Western Justice Center in managing that property bears increased
scrutiny. The Club has consistently argued that the
scrutiny is required because the City purchased the
property to promote a plan of public use – a plan that
the Western Justice Center was required to manage
and implement for the City under the terms of the
lease.
This Court should grant review to determine
whether long-term exclusive use of public property of
city property removes the property from the requirements of the Constitution.

8
CONCLUSION
The facts are clear and not subject to dispute.
The City represented to the federal government that
it was purchasing this property for the public purposes of the City. Under the terms of the lease the
Western Justice Center manages the the City-owned
property and is tasked with ensuring that the City’s
“Plan of Public Use” was fulfilled.
The court below failed to give proper scrutiny to
these undisputed facts and instead added new requirements to this Court’s ruling in Burton, in effect
overruling that decision. The decision of the Ninth
Circuit conflicts with the decisions of this Court and
the decisions of other Courts of Appeals. Review
should be granted to resolve the conflicts and to answer the important questions presented by the case.
DATED: September 14, 2021
Respectfully submitted,
ANTHONY T. CASO
Counsel of Record
CONSTITUTIONAL COUNSEL GROUP
174 W. Lincoln Ave., #620
Anaheim, CA 92805
(916) 601-1916
atcaso@ccg1776.com
Counsel for Petitioner

